DOE/IG-0508




          AUDIT                  STOCKED INVENTORY AT THE
         REPORT                     SAVANNAH RIVER SITE




                                           JUNE 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                         U. S. DEPARTMENT OF ENERGY
                               Washington, DC 20585

                                     July 27, 2001




MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Stocked Inventory at the
                         Savannah River Site"

BACKGROUND

The Department of Energy's (Department) management and operating contractor at the
Savannah River Site, Westinghouse Savannah River Company (Westinghouse), is
responsible for managing the majority of the Department's missions and associated
stocked inventory at the site. As of March 2001, Westinghouse maintained about
4.1 million items in its stocked inventory. These items have an acquisition value of about
$64 million. Westinghouse estimated the cost directly related to storing these items to be
about $700,000 annually. The objective of this audit was to evaluate Westinghouse's
management of the stocked inventory at the Savannah River Site.

RESULTS OF AUDIT

Westinghouse was not adequately managing its stocked inventory. The contractor had
not identified and disposed of items that: (i) exceeded "maximum" inventory levels, and
(ii) had no usage during the last 10 years. The audit disclosed that Westinghouse did not
have procedures in place to calculate the amount of stocked inventory necessary for the
site's mission. Further complicating the situation, Westinghouse accounting procedures
penalized users for identifying and disposing of excess stocked inventory. Specifically,
when items were declared excess, removed from inventory, and disposed of, they had to
be charged against a specific user's budget account. Thus, the users had little or no
incentive to ensure that excess inventories were properly addressed.

We identified stocked inventory with an acquisition cost of about $9 million that did not
appear to be needed. Westinghouse incurred about $116,000 per year to store these
items. These costs were fully reimbursed by the Department. Because Westinghouse did
not track revenues or expenses related to excess stocked inventory, a precise calculation
regarding overall monetary impact of the inventory situation at Savannah River could not
be made. However, it was clear that significant operating economies were possible if
excess inventories were disposed of promptly.
                                           2


The Office of Inspector General has found similar inventory situations at several
Departmental facilities. In fact, the issue of property and inventory controls has been
identified by this office as one of the top 10 management challenges facing the
Department. We believe that a high-level Departmentwide effort is warranted to identify
and dispose of excess assets; reduce related storage and maintenance costs; and, develop
a system which maximizes operational efficiency by maintaining inventories at
appropriate levels.

MANAGEMENT REACTION

Management concurred with the finding and recommendations and agreed to initiate
corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary
    Chief Financial Officer
STOCKED INVENTORY AT THE SAVANNAH RIVER SITE

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ..........................................................1

                Conclusions and Observations ...................................................1


                Managing Stocked Inventory

                Details of Finding.......................................................................3

                Recommendations and Comments ...........................................5


                Appendix

                Scope and Methodology.............................................................7
OVERVIEW

INTRODUCTION AND   Westinghouse Savannah River Company (Westinghouse), the
OBJECTIVE          Department of Energy's (Department) management and operating
                   contractor at the Savannah River Site, is responsible for managing the
                   majority of stocked inventory stored at the site. As of March 12, 2001,
                   Westinghouse's Asset Management Division maintained about
                   4.1 million items in its stocked inventory, acquired at a cost of about
                   $64 million. These inventory items were stored in four central
                   warehouses, six satellite warehouses, and two open yards.
                   Westinghouse estimated the cost directly related to storing these items
                   to be about $700,000 annually.

                   The Office of Inspector General (OIG) has previously reported on
                   property management issues. In July 1999, the OIG issued
                   DOE/IG-0450, The U.S. Department of Energy's Non-Nuclear
                   Materials Inventory at the Kansas City Plant. The audit concluded that
                   the Department was not effectively identifying and disposing of
                   unneeded non-nuclear materials inventory at its Kansas City Plant. As
                   a result, the Kansas City Plant incurred over $2 million annually in
                   additional storage costs, and it did not benefit from the revenue that
                   could have been derived from the sale of any marketable portion of the
                   unneeded materials.

                   The objective of this audit was to determine whether Westinghouse was
                   managing its stocked inventory.

CONCLUSIONS AND    Westinghouse was not adequately managing its stocked inventory.
OBSERVATIONS       Specifically, Westinghouse was not identifying and disposing of items
                   that exceeded "maximum" inventory levels or had no usage during the
                   last 10 years. These items had not been identified as excess and
                   disposed of because (1) procedures were not in place to determine how
                   many items of stocked inventory were necessary to meet the site's
                   mission, and (2) accounting procedures discouraged users from
                   reporting stocked inventory as excess. As a result, Westinghouse is
                   incurring about $116,000 annually to store about $9 million in stocked
                   inventory that does not appear to be needed. In addition, we could not
                   determine the potential savings associated with the disposal of the items
                   that appeared to be excess because Westinghouse did not track revenues
                   or expenses related to excess stocked inventory. The true savings can
                   be determined only after minimum and maximum inventory levels have
                   been determined.




Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         This audit identified significant issues that management should consider
         when preparing its yearend assurance memorandum on internal controls.




                                                       (Signed)
                                              Office of Inspector General




Page 2                                         Conclusions and Observations
MANAGING STOCKED INVENTORY

Westinghouse Did        Westinghouse was not adequately managing its stocked inventory.
Not Identify and        Specifically, Westinghouse had not identified and disposed of items
Dispose of Excess       that exceeded maximum inventory levels or had no usage in the last
Stocked Inventory       10 years. As of March 12, 2001, Westinghouse had about 674,000
                        items in its stocked inventory that exceeded maximum inventory levels.
                        For example, Westinghouse had 40 access control devices, costing
                        $160,000, which was 38 over the established maximum inventory level
                        of 2. Also, Westinghouse had 739 packs of equipment lockout tags,
                        costing $12,772, which was 726 over the established maximum
                        inventory level of 13. Based on historical consumption rates,
                        Westinghouse had a 200-year supply of access control devices and a
                        107-year supply of equipment lockout tags. Thus, the on-hand
                        quantities for the items appeared to be excessive.

                        In addition, Westinghouse had 8,423 items in its stocked inventory for
                        which there had been no usage in the last 10 years. For example,
                        Westinghouse had 8 ceramic-backed, 90-degree bends, costing $12,080,
                        even though the item had not been used in 13 years. Also,
                        Westinghouse had 4 left-bank, camshaft drives, costing $1,208, even
                        though the item had not been used in 14 years. Since neither of these
                        items had been used in over 13 years, they appear to be excessive.

                        In accordance with the Government Performance and Results Act of
                        1993, the Savannah River Operations Office (Operations Office) and
                        Westinghouse had established some performance measures in their
                        Annual Operating Plans covering the management of stocked inventory.
                        However, these involved activities such as auctions of excess property
                        and conduct of an Electronic Hand Receipt Program. There were no
                        performance measures directly related to identifying and disposing of
                        stocked inventory.

Federal Regulations     Federal property regulations require that the Department and its
Require That            contractors continuously survey property under their control to assure
Westinghouse Identify   maximum use. Additionally, the regulations require that the
and Dispose of Excess   Department and its contractors promptly identify property that is excess
Stocked Inventory       to their needs and make excess property available for use elsewhere. If
                        the property cannot be used elsewhere, it should be disposed of in an
                        efficient manner.

Westinghouse's          Westinghouse did not identify and dispose of excess stocked inventory
Procedures Needed       items because (1) procedures were not in place to determine how many
Improvement             items of stocked inventory were necessary to meet the site's mission,
                        and (2) accounting procedures discouraged users from reporting
                        stocked inventory as excess.

Page 3                                                                       Details of Finding
                           Westinghouse did not have procedures in place to calculate the
                           amount of stocked inventory necessary for the site's mission.
                           Instead, Westinghouse's Asset Management Division relied on users
                           to determine minimum and maximum inventory levels using any
                           method deemed appropriate by the user. Some users stated that they
                           estimated the maximum and minimum inventory levels based on
                           their personal experiences. However, users did not have access to
                           the types of information normally used to calculate minimum and
                           maximum inventory levels, such as economic order quantities,
                           procurement lead-time, repair turnaround time, projected changes in
                           usage rates, and loss rates for repairable items. Thus, they did not
                           have the information necessary to accurately determine the amount
                           of stocked inventory needed. When Westinghouse's Asset
                           Management Division was unable to obtain the minimum and
                           maximum inventory levels from users, it arbitrarily set the minimum
                           level at one and the maximum level at two.

                           In addition, Westinghouse's accounting procedures penalized users
                           for identifying and disposing of excess stocked inventory.
                           Specifically, the accounting procedures required that a user's
                           program be charged for items that were determined to be excess.
                           Westinghouse's stocked inventory was purchased with general site
                           funds and was not charged to users until the stocked inventory was
                           actually used. However, before the items were declared excess,
                           removed from inventory, and disposed of, they had to be charged
                           against a specific user's budget account. These accounting
                           procedures discouraged most users from declaring stocked inventory
                           as excess.

Avoidable Costs Were       Westinghouse is incurring an estimated $116,000 annually to store
Incurred to Store Excess   about $9 million in stocked inventory items that do not appear to be
Stocked Inventory          needed. Storage costs were estimated based on the percentage of
                           stocked inventory items that appeared to be excess (16.6 percent)
                           applied to Westinghouse's estimate of the variable costs to store
                           stocked inventory ($700,000). We identified about $4 million of
                           items that exceeded maximum inventory levels and an additional
                           $5 million of items that had no usage for at least 10 years. By
                           comparison, the Manager for the Asset Management Division
                           estimated that Westinghouse had $10 million to $12 million in
                           excess stocked inventory on hand during the audit; however, the
                           Manager had no analytical data to support the estimate.




Page 4                                                                       Details of Finding
                      Additionally, we could not determine the potential savings associated
                      with the disposal of stocked inventory items that appeared to be
                      excess because Westinghouse does not separately track revenues or
                      expenses related to excess stocked inventory. However, additional
                      savings could be achieved by disposing of excess items.
                      Specifically, by making excess items available for other sites, the
                      Department could avoid the expense of purchasing identical items
                      elsewhere. Also, if the items are not needed elsewhere, the
                      Department could sell them to outside parties. Further, if the excess
                      stocked inventory items were disposed of, Westinghouse could avoid
                      the cost of repairing some of the unneeded items. The true savings
                      can be determined only after minimum and maximum inventory
                      levels are determined.

RECOMMENDATIONS       We recommend that the Manager, Savannah River Operations
                      Office:

                           1. Direct Westinghouse to:

                                 a. Assign responsibility and authority for determining
                                    minimum and maximum inventory levels for stocked
                                    inventory to the Asset Management Division;

                                 b. Develop written procedures for accurately
                                    calculating the minimum and maximum quantities of
                                    an item to be kept on hand utilizing accepted
                                    inventory management techniques, such as economic
                                    order quantities and procurement lead-times; and,

                                 c. Revise accounting procedures for stocked inventory
                                    to remove the penalty for declaring stocked inventory
                                    items as excess.

                           2. Develop performance measures to identify and dispose of
                              excess stocked inventory items.


MANAGEMENT REACTION   Management concurred with the finding and recommendations and
                      agreed to initiate corrective action. The Manager, Savannah River
                      Operations Office issued a letter to the President of Westinghouse,
                      on June 1, 2001, advising of the concurrence with the
                      recommendations in the OIG report. Westinghouse was requested to
                      provide, by June 29, 2001, a list of actions it would take to address
                      all of the recommendations in the report. Management stated

Page 5                                               Recommendations and Comments
                   recommendation 1c requires a change to Department policies relative to
                   accounting and budgeting for inventories before it can direct
                   Westinghouse to implement the change. The Operations Office agreed
                   to develop, propose and pursue appropriate changes to these policies.
                   Two alternatives to current Department policy will be developed and
                   forwarded to the Office of the Chief Financial Officer by July 15, 2001.
                   Regarding recommendation 2, management stated that performance
                   metrics will be developed by July 15, 2001.


AUDITOR COMMENTS   Management's planned actions are responsive to the recommendations.



                   .




Page 6                                              Recommendations and Comments
Appendix

SCOPE         The audit was performed from August 21, 2000, to April 20, 2001, at
              the Savannah River Site near Aiken, South Carolina. The audit covered
              a review of Westinghouse's stocked inventory as of March 12, 2001.

METHODOLOGY   To accomplish the audit objective, we:

                  • Researched Federal and Departmental requirements for
                    managing stocked inventory;

                  • Reviewed Westinghouse's policies, procedures, and practices for
                    managing stocked inventory;

                  • Analyzed Westinghouse's stocked inventory as of March 12,
                    2001; and,

                  • Selected and performed a small, judgmental sample of
                    consumable and repairable stocked inventory to determine if the
                    inventory on hand as of March 12, 2001, was excess to mission
                    needs at the site.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental and contractor policies,
              procedures, and performance measures related to the management and
              control of stocked inventory. Because our review was limited, it would
              not necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. We assessed the reliability of
              computer generated data by comparing it to independently generated
              data sources and found the data to be reliable for the purposes of this
              audit.

              Management waived the exit conference on June 21, 2001.




Page 7                                                      Scope and Methodology
                                                                             IG Report No. : DOE/IG-0508

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
